No. __

_

Jn tbt ll>uprtmt~ourt of tbt ltntttb &tatts
JAMEL MOBLEY,

Petitioner,
Versus

SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
FLORIDA ATTORNEY GENERAL,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE ELEVENTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
RACHAEL E. REESE, ESQUIRE
Counsel of Record
Attorney at Law
O'BRIEN HATFIELD REESE, P.A.
511 West Bay Street, Suite 330
Tampa, F/,orida 33606
(813) 228-6989
rer@markjobrien.com

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
The Petitioner moves this Court pursuant to Rule 39 for leave to proceed in

forma pauperis. Petitioner previously moved to proceed in forma pauperis and was
granted said request in the Eleventh Circuit Court of Appeal, pursuant to Title 18
United States Code Section 3006A.

Respectfully submitted,
Jamel Mobley, Petitioner

R~

Date: November 30, 2020

Rachael E. Reese
Counsel of Record for Petitioner
O'BRIEN HATFIELD REESE P.A.
511 West Bay Street, Suite 330
Tampa, Florida 33606
Telephone: 813.228.6989
E-mail: rer@markjobrien.com

2

